U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

January 13, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Darrin B. Woodard v. United States, No. S. Ct. No. 20-6387
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on November 16,
2020. The government’s response is now due, after one extension, on January 20, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including February 19, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-6387
WOODARD, DARRIN B.
USA

MICHAEL R. DREEBEN
O'MELVENY & MYERS LLP
1625 EYE STREET, NW
WASHINGTON, DC 20006
202-383-5400
MDREEBEN@OMM.COM
SHIRA KIEVAL
OFFICE OF THE PUBLIC DEFENDER
633 17TH STREET
SUITE 1000
DENVER, CO 80202
SHIRA.KIEVAL@FD.ORG

